NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
Review of NOAA Catch
Share Programs

FINAL REPORT NO. OIG-14-019-I
MAY 1, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
May 1, 2014

MEMORANDUM FOR:              Dr. Kathryn Sullivan
                             Under Secretary of Commerce for Oceans and
                               Atmosphere and NOAA Administrator



FROM:                        Andrew Katsaros
                             Assistant Inspector General for Audit

SUBJECT:                     Review of NOAA Catch Share Programs
                             Final Report No. OIG-14-019-I

Attached please find the final report of our review of NOAA’s management of catch share
programs. This is the third report in a multiple-phase review of the National Marine Fisheries
Service (NMFS) and Fishery Management Councils (FMC) in response to a Congressional
request. The objective of this review was to evaluate the sufficiency of NOAA’s implementation
and monitoring of a selection of catch share programs developed by FMCs. For the six
programs we reviewed, we identified several issues:

   1. The Pacific Sablefish Permit Stacking individual fishing quotas program does not have
      adequate data and NOAA is not monitoring to determine whether individual permits
      are exceeding their allowed landings. As a result, NOAA is not enforcing the limitation
      on landings per individual permit, and individual permits have exceeded their allowed
      landings without corrective action.

   2. The Golden Tilefish program did not have formal controls to ensure that shareholders
      with active sanctions were prevented from buying, selling, or transferring shares or
      allocation.

   3. The Alaska Halibut and Sablefish, Gulf of Mexico Red Snapper, and the South Atlantic
      Wreckfish catch share programs rely solely on self-certifications for evidence that
      shareholders meet some qualification criteria, such as U.S. citizenship required to own
      quota shares or allocation.

We have summarized your response in the report and included the formal response as
appendix D. The final report will be posted on the OIG's website pursuant to section 8L of the
Inspector General Act of 1978, as amended. In accordance with Departmental Administrative
Order 213-2, please submit to us within 60 calendar days of the date of this memorandum an
action plan that responds to the recommendations in this report.
We appreciate the assistance and courtesies extended to us by your staff during the review.
If you have any questions about this report, please contact me at (202) 482-7859 or David
Sheppard, Regional Inspector General for Audit, at (206) 220-7970.

Attachment




                                               2
                                              Report In Brief                                               MAY 1, 2014



Background                             NATIONAL OCEANIC AND ATMOSPHERIC
“Catch share” is a general term        ADMINISTRATION
for several fishery management
strategies that allocate a specific    Review of NOAA Catch Share Programs
portion of the total allowable         OIG-14-019-I
fishery catch to individuals, coop-
eratives, communities, or other
entities.
                                       WHAT WE FOUND
Catch share programs have been         We reviewed 6 of the 15 current catch share programs to evaluate the sufficiency of
used in U.S. federal fisheries since   NOAA’s implementation and monitoring of the programs. We found that
1990, and now include 15 pro-          • NOAA does not have adequate data and does not track or enforce landings overage
grams managed by 6 different             violations in the Pacific Sablefish Permit Stacking Individual Fishing Quota (IFQ). NOAA
Fishery Management Councils              currently does not monitor Pacific Sablefish landings on an individual permit basis
(FMCs). Each program is designed         during a fishing season. Instead, it only monitors landings for the entire fishery as a
by the relevant FMC with features        whole, using a paper-based system that is subject to compromise and the multiple
tailored to the specific program
                                         possibilities of error associated with any manual process. In addition, we identified
goals and objectives or other
                                         189 instances where actual landings exceeded the allowed landings for individual
unique characteristics of the fish-
                                         permits from 2008 through 2013.
eries in their region.
                                       • The Golden Tilefish program did not have formal controls to ensure that shareholders with
                                         sanctions were prevented from buying, selling, or transferring shares or allocation. While this
Why We Did This Review                   particular program does not have a large number of participants, it nonetheless has an
                                         ineffective process for monitoring shareholders with active sanctions.
This report is part of a multiple-
phase review OIG is conducting         • NOAA relies on shareholder self-certifications for eligibility criteria. The Alaska Halibut and
in response to Congressional             Sablefish, Gulf of Mexico Red Snapper, and the South Atlantic Wreckfish catch share
concerns about the National Ma-          programs rely solely on self-certifications for evidence that shareholders meet some
rine Fisheries Service (NMFS) and        qualification criteria, such as U.S. citizenship required to own quota shares or
the FMCs. It is focused on the           allocation. NOAA does not perform any review of these self-certifications to verify
development of rules for the             their validity. Instead, it relies on its Office of Law Enforcement and the Coast Guard
commercial fishing industry and          to verify eligibility during their enforcement activities.
the fisheries regulation process at
NOAA, the NMFS, and the
FMCs.                                  WHAT WE RECOMMEND
Two previous reports looked at         We recommend that the NOAA Assistant Administrator for Fisheries, in coordination
(a) the role of NOAA and the           with the Pacific Fishery Management Council and relevant state agencies improve the
FMCs in the fishery rulemaking         internal controls for the Pacific Sablefish Permit Stacking IFQ program. NOAA should
and (b) FMC perspectives on fish-      also verify whether improvements should be made in the programs not included in our
ery regulatory requirements, rule-     review. Specifically, for all catch share programs, we recommend that the NOAA
making, and improvements in            Assistant Administrator for Fisheries
fisheries management.                  1. Develop a process to ensure that accurate landings information is obtained by
The objective of this report was          individual permit in a timely manner.
to evaluate the sufficiency of
NOAA’s implementation and              2. Develop controls to monitor landings on an individual permit basis to ensure overage
monitoring of a selection of catch        violations are adequately addressed.
share programs developed by            3. Develop a process to ensure that shareholders with sanctions are prevented from
FMCs, and to consider the ade-            buying, selling, or transferring shares or allocation.
quacy of automated and manual
systems and processes for col-         4. Document procedures for determining when reviewing self-certifications is
lecting information and adminis-          warranted, to ensure that shareholders meet eligibility requirements prior to joining
tering catch share programs.              fisheries.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1
Objective, Findings, and Recommendations ...............................................................................................4
   1. NOAA does not have adequate data and does not track or enforce landings overage
      violations in the Pacific Sablefish Permit Stacking IFQ .....................................................................5
   2. The Golden Tilefish program did not have formal controls to ensure that shareholders
      with sanctions were prevented from buying, selling, or transferring shares or allocation .....6
   3. NOAA relies on shareholder self-certifications for eligibility criteria .........................................6
   Recommendations ........................................................................................................................................7
Summary of Agency Response and OIG Comments ................................................................................8
Appendix A: Objective, Scope, and Methodology.....................................................................................9
Appendix B: Other Related Information .................................................................................................. 10
Appendix C: Glossary of Fishery Terms .................................................................................................. 11
Appendix D: Agency Response .................................................................................................................. 13




                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                           U.S. Department of Commerce headquarters,
                                                                                                                   by sculptor James Earle Fraser, 1934
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Introduction
In 2011 Congressmen Barney Frank and John F. Tierney expressed concerns over the fisheries
regulatory process at NOAA, the National Marine Fisheries Service (NMFS), and Fishery
Management Councils (FMCs). 1 In response, our office initiated a multiple-phase review of
NMFS and FMCs related to the development of rules for the commercial fishing industry, with
the intent of generating multiple reports. In 2013 we issued two reports: the first covers the
role of NOAA and the FMCs in the fishery rulemaking process and the transparency of the
rulemaking,2 and the second summarizes FMC perspectives on fishery regulatory requirements,
rulemaking, and improvements in fisheries management.3 This third report addresses NOAA’s
management of the catch share programs it monitors.

Catch share is a general term for several fishery management strategies that allocate a specific
portion of the total allowable fishery catch to individuals, cooperatives, communities, or other
entities.4 Internationally, catch share programs have been used since the 1970s to manage
hundreds of fisheries.5 Catch share programs have been used in U.S. federal fisheries since 1990
and now include 15 programs managed by 6 different FMCs (see figure 1, next page). Each
program is designed by the relevant FMC with features tailored to the specific program goals
and objectives or other unique characteristics of the fishery.

The term “catch share” includes specific programs—such as limited access privilege programs
(LAPP), individual fishing quotas (IFQ), community development quotas (CDQ), and individual
transferable quotas (ITQ)—that grant an exclusive privilege to fish in a specific fishery within
the FMC’s jurisdiction. The intended effects of implementing a catch share program can include
       controlling catch to an overall limit, eliminating “derby” fishing (a race to catch as much
        fish as quickly as possible),
       promoting longer fishing seasons,
       correcting problems of overcapitalization (i.e., too many boats and/or too few fish
        resulting in lower profits and/or poor product quality),
       reducing bycatch,
       limiting seasonal gluts of fish markets, and
       improved safety.



1
  August 17, 2011, letter from Congressmen Barney Frank and John F. Tierney to Department of Commerce
(DOC) Inspector General.
2
  DOC Office of Inspector General, January 16, 2013. NOAA Needs to Continue Streamlining the Rulemaking Process
and Improve Transparency and Consistency in Fisheries Management, OIG-13-011-I. Washington, DC: DOC OIG.
3
  DOC OIG, April 5, 2013. Results of Commerce OIG’s Online Survey of Fishery Management Council Members and Staff,
OIG-13-022-I. Washington, DC: DOC OIG.
4
  Refer to appendix C for a glossary of fishery terms.
5
  DOC NOAA, November 2010. NOAA Catch Share Policy. Washington, DC: DOC NOAA, 2.


FINAL REPORT NO. OIG-14-019-I                                                                                    1
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

                              Figure 1. Catch Share Programs, by FMC




Source: NOAA
The years listed for each program represents the first year of the catch share program’s implementation.
The Sustainable Fisheries Act of 1996 (Pub. L. No. 104-297) created a moratorium on new individual fishing quota
programs from January 4, 1995, through September 30, 2000. Congress later extended the moratorium through
September 30, 2002 (Pub. L. No. 106-554), and then allowed it to expire (see U.S. Government Accountability
Office, December 2002, Individual Fishing Quotas: Better Information Could Improve Program Management, report no.
GAO-03-159).

Subject to the constraints in the Magnuson-Stevens Fishery Conservation and Management Act6
(MSA) and other applicable laws, NOAA has advised the FMCs that catch share programs are
an option to meet their fishery management objectives. NOAA policy does not require use of
catch share programs and advises that the programs are not appropriate for all fisheries. As a
result, NOAA gives the FMCs latitude in determining the type and construction of catch share
programs for the fisheries in their region. Although NOAA encourages the consideration and
adoption of catch shares wherever appropriate, FMCs generally determine whether specific
fisheries will implement catch shares.

The recipient of a catch share is directly accountable to stop fishing when its exclusive share or
annual allocation is reached. The ability of shareholders to transfer quota share or annual

6
    16 U.S.C. §§ 1801–1884.


2                                                                                     FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

allocation depends on the management goals and statutory authority of each specific catch
share program. Limiting transferability reduces the economic efficiency of the fishery. However,
it can help to achieve other objectives, such as controlling the number of fishermen, the size of
vessels, type of owners, or the type of fishing gear. Most programs have accumulation limits set
by the relevant FMC to prevent excessive ownership of share or annual allocation, dependent
upon the goals and objectives of the program. The transfers and sales of quota share and annual
allocation are subject to NOAA approval to ensure compliance with accumulation limits or
other program requirements.

In opposition to proponents of catch share programs are stakeholders who believe that these
programs also have negative consequences. Some argue that catch share programs primarily
benefit large, commercial fishing operations at the expense of small commercial fishing
operations and sport fishermen—and that the costs to obtain the privilege to fish have
increased to a level that new fishermen are excluded from the market. It has also been
contended that the programs have a negative impact on local economies, through the reduction
in fleet sizes and reduced pay to fishermen. There are additional claims that certain groups,
including environmental groups, investment firms, or other nonfishermen, can accumulate
fishing privileges. For this review, we designed our tests to assess the effectiveness of NOAA
program operations, not to assess comprehensive market impacts of the specific programs
reviewed.

In response to a Congressional request, the Government Accountability Office (GAO) is
currently conducting a review of NOAA’s fish stock assessment process. The request asks
GAO to review
       the frequency with which NMFS conducts stock assessments;
       the amount of federal resources spent annually on such assessments;
       how NMFS determines which assessments to undertake and the frequency for doing so,
        including the relative costs and benefits considered when committing resources to
        improving stock assessments and prioritizing them;
       the extent of discrepancies, if any, in the number and frequency of stock assessments
        conducted across regions of the country;
       what resources are necessary to adequately sustain regular collection of information for
        fishery stock assessments; and
       the various options for involving stakeholders in gathering valid fishery data directly
        supportive of regional council fisheries management decision-making and what gaps, if
        any, could be filled by guided stakeholder input.

In this review, we evaluated the sufficiency of NOAA’s implementation and monitoring of a
selection of catch share programs developed by FMCs. With our review’s scope limited to
NOAA operations, we considered the adequacy of automated and manual systems and
processes to collect information needed to make decisions when administering catch share
programs. Appendix A details the objectives, scope, and methodology of this phase of the
review.



FINAL REPORT NO. OIG-14-019-I                                                                     3
U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL


Objective, Findings, and Recommendations
The objective of our review was to evaluate the sufficiency of NOAA’s implementation and
monitoring of a selection of catch share programs developed by FMCs. For this objective, we
considered the adequacy of automated and manual systems and processes to collect
information needed to make decisions when administering catch share programs. We
judgmentally selected 6 of the 15 current catch share programs for review based on qualitative
and quantitative factors. They represent a program from each FMC that has implemented a
catch share program and are administered by four NMFS regional offices. Table 1 provides a
summary of the programs reviewed.

                           Table 1. Catch Share Programs Reviewed by OIG

Program                                  Program Goals/Objectives                           Accumulation Limita

                            • Reduce overcapacity in the commercial fishery
Mid-Atlantic Golden         • Eliminate, to the extent possible, problems associated     49% of total allowable
Tilefish IFQ                  with a derby-style fishery                                 landings (TAL)

                            • Control capacity and mortality in the general category     • 5% of total allowable catch
New England Atlantic
                              scallop fishery                                            (TAC)
Sea Scallops IFQ
                                                                                         • 2.5% of TAC per vessel
                            • Reduce overcapacity in the commercial fishery
Gulf of Mexico Red          • Eliminate, to the extent possible, problems associated
                              with derby fishing, in order to assist the FMC in          6.0203% of total IFQ shares
Snapper IFQ
                              achieving optimum yield

                            • Decrease the harvest pace and overcapitalization of
South Atlantic                the fleet
                            • Decrease conflicts among fishermen                         49% of total ITQ shares
Wreckfish ITQ
                            • Create incentives for compliance and conservation

                             Resolve various conservation and management
                             problems stemming from “open access” and                    0.5–1.5% of halibut or
North Pacific Halibut        development of commercial fisheries in communities          sablefish shares in various
and Sablefish IFQ and        on the Bering Sea coast, by allowing exclusive access       combination of geographical
CDQ                          to specified amounts of halibut and sablefish in the        areas (Gulf of Alaska, Bering
                             Bering Sea and Aleutian Islands area                        Sea, and Aleutians)

                            • Allow longer fishing seasons                               3 sablefish-endorsed permitsb
Pacific Sablefish Permit    • Increase safety and ability to fish more selectively       (unless owned prior to
Stacking IFQ                • Increase income by improving product quality.              November 1, 2000)

Source: OIG summary of NOAA data
a
  Refer to appendix B for additional discussion of accumulation limits.
b
  Each sablefish-endorsed permit is assigned to one of three tiers, which determine the number of sablefish that
may be harvested with each permit in a particular year’s primary sablefish fishery. A vessel owner may register up
to three sablefish-endorsed permits for use with their vessel to harvest the cumulative limits associated with each
of those permits.




4                                                                                         FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

1. NOAA does not have adequate data and does not track or enforce landings
overage violations in the Pacific Sablefish Permit Stacking IFQ

During our documentation of NOAA’s controls over landing overages, we found instances
where shareholders landed more than their annual allocations allowed. Five of the six programs
we reviewed had adequate procedures in place to ensure that, when overages occurred,
shareholders had acquired additional allocation, had allocation withheld in the subsequent
fishing season, or were referred to NOAA’s Office of Law Enforcement (OLE). For example,
the Gulf of Mexico Red Snapper IFQ program requires that commercial vessels make a landing
notification 3–12 hours in advance of unloading their catch. Vessel operators provide the vessel
name, landing location, dealer’s name, time of landing, and estimated pounds landed. The NMFS
Southeast Region’s IFQ online system then identifies whether the vessel’s remaining annual
allocation is sufficient to cover the pounds landed by the vessel. NMFS OLE and IFQ support
staff receive an email message generated by the IFQ online system indicating whether the vessel
has sufficient allocation to cover the amount landed. IFQ shareholders can legally exceed, by up
to 10 percent, the shareholder’s remaining allocation on the last fishing trip of the year, but any
overage is subtracted from the shareholder’s allocation at the start of the next fishing year.

By contrast, we found that the Pacific Sablefish Permit Stacking IFQ program does not have
adequate data, and NOAA is not monitoring to determine whether individual permits are
exceeding their allowed landings. As a result, NOAA is not enforcing the limitation on landings
per individual permit and individual permits have exceeded their allowed landings without
corrective action.

The Pacific Sablefish program tracks landings through paper-based fish tickets collected by state
agencies in Washington, Oregon, and California, and subsequently submitted to the Pacific
States Marine Fisheries Commission (PSMFC). The commission, in turn, enters the fish tickets
into the Pacific Fisheries Information Network (PacFIN), to which NOAA then has access. The
three states also enter the fish tickets into systems for their own tracking, and quality assurance
reviews are performed at the state agencies and PSMFC. As a result of this process, NOAA
estimates that it can take roughly 2–4 months after a landing occurs to have access to the data
for a specific landing or for total landings under an individual permit.

NOAA currently does not monitor Pacific Sablefish landings on an individual permit basis during
a fishing season. Instead, it only monitors landings for the entire fishery as a whole. However,
the data being monitored in-season is based on a combination of fish tickets and estimates, due
to the inability to obtain real-time landings data.

There are several problems with this system. First, it is paper-based and thus subject to
compromise and the multiple possibilities of error associated with any manual process, such as
lost or destroyed tickets or typographical errors. Second, the use of in-season estimates does
not provide NOAA with sufficient evidence to enforce landing overage violations. Third,
NOAA does not review landings data after a fishing season for this particular program to
determine whether individual permits have exceeded their allowed landings. As a result, NOAA
does not have sufficient controls to monitor landings overages for the Pacific Sablefish. A
summary of landings overages for the Pacific Sablefish is provided in table 2 (see next page).


FINAL REPORT NO. OIG-14-019-I                                                                     5
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

                   Table 2: Pacific Sablefish Landings Overages, 2008–2013

    Amount of Overage                Number of                   Total Overage               Average Overage
    (lbs)                             Permits                        (lbs)                         (lbs)
    0–100                                110                           3,279                           30

    100–500                                52                         11,734                          226

    500–1,000                              15                         10,215                          681

    > 1,000                                12                         32,607                         2,717

    Total                                189                          57,835
Source: OIG from NOAA data
The total annual overages ranged from 0.13 to 0.56 percent of the total tier fishery, or 0.28% of the total tier
fishery, from 2008 through 2013.

In addition to its incomplete controls over monitoring Pacific Sablefish landings, NOAA has also
not effectively enforced restrictions on landings overages. As noted in table 2, we identified 189
instances where actual landings exceeded the allowed landings for individual permits from 2008
through 2013. Although the majority of the overages were not significant as compared to the
fishery’s daily trip limit, 12 of the overages totaled 32,607 pounds. NOAA did not take any
action to correct the overages, such as requiring the purchase or leasing of an additional
permit, reducing allowable landings in the subsequent fishing year, or referring the violation to
OLE.

2. The Golden Tilefish program did not have formal controls to ensure that
shareholders with sanctions were prevented from buying, selling, or transferring
shares or allocation

During our review, we found that the Golden Tilefish program did not have formal controls to
ensure that shareholders with active sanctions were prevented from buying, selling, or
transferring shares or allocation. (We did not discover any instances where shareholders with
active sanctions participated in the market for catch shares.) While this particular program does
not have a large number of participants (12), it nonetheless has an ineffective process for
monitoring shareholders with active sanctions. NOAA should examine whether shareholders
with sanctions were able to buy, sell, or trade their shares or allocation in the Golden Tilefish
program; determine whether other, additional programs also lack adequate controls; and take
corrective action as necessary.

3. NOAA relies on shareholder self-certifications for eligibility criteria

We found that the Alaska Halibut and Sablefish, Gulf of Mexico Red Snapper, and the South
Atlantic Wreckfish catch share programs rely solely on self-certifications for evidence that
shareholders meet some qualification criteria, such as U.S. citizenship required to own quota
shares or annual allocation. During the initial application and allocation process, NOAA
requires documentation for some criteria in the Alaska Halibut and Sablefish program but does


6                                                                                       FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

not require documentation to support U.S. citizenship. NOAA does not perform any review of
the self-certifications for the Gulf of Mexico Red Snapper or South Atlantic Wreckfish
programs to verify their validity. Instead, it relies on OLE and the Coast Guard to verify
eligibility during their enforcement activities. We did not determine whether false self-
certifications are a significant issue for those catch share programs, nor did we identify any
instances of shareholders providing false information in the self-certifications. However, NOAA
should consider whether review of self-certifications is warranted in order to better ensure
that, prior to joining the fishery, shareholders meet eligibility requirements.

Recommendations

We recommend that the NOAA Assistant Administrator for Fisheries—in coordination with
the Pacific FMC and relevant state agencies in Washington, Oregon, and California where
necessary—improve the internal controls for the Pacific Sablefish Permit Stacking IFQ program.
NOAA should also verify whether improvements should be made in the programs not included
in our review. Specifically, for all catch share programs, we recommend that the NOAA
Assistant Administrator for Fisheries

    1. Develop a process to ensure that accurate landings information is obtained by individual
       permit in a timely manner.

    2. Develop controls to monitor landings on an individual permit basis to ensure overage
       violations are adequately addressed.

    3. Develop a process to ensure that shareholders with sanctions are prevented from
       buying, selling, or transferring shares or allocation.

    4. Document procedures for determining when reviewing self-certifications is warranted,
       to ensure that shareholders meet eligibility requirements prior to joining fisheries.




FINAL REPORT NO. OIG-14-019-I                                                                  7
U.S. DEPARTMENT OF COMMERCE                                     OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
OIG received NOAA’s comments on the draft report, which we include as appendix D of this
final report. NOAA concurs with the findings and recommendations in the report. NOAA will
develop corrective action plans and ensure timely implementation to address the
recommendations. We look forward to receiving NOAA’s corrective action plan.




8                                                                   FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
The objective of our review was to evaluate the sufficiency of NOAA’s implementation and
monitoring of a selection of catch share programs developed by FMCs. Specifically, we sought
to determine whether NOAA has adequate controls to prevent share ownership above the
allowable limits and to ensure adequate competition. We considered the adequacy of
automated and manual systems and processes to collect information needed to make decisions
when administering catch share programs.

To accomplish our objective, we

       Reviewed relevant laws and regulations for catch share programs in general, including
        the MSA and the NOAA Catch Share Policy, and regulations specific to the six
        programs included in the review.

       Documented the internal controls at NMFS’s regional offices for ensuring that excessive
        ownership limits for catch shares were not exceeded.

       Determined whether NOAA can identify those individuals or entities originally provided
        with quota shares for the programs reviewed and those that currently own shares.

       Gained an understanding of the capabilities of NOAA’s catch share accounting systems.
        We also reviewed whether NOAA has adequate controls to ensure that the
        information in the system is accurate, complete, and captures the data required to
        monitor consolidation activity and other aspects of catch share programs.

       Documented NOAA’s process for distributing quota shares and its oversight of quota
        holders subsequent to share distribution, including transfers and sales of quota shares
        and allocation.

       Determined whether any shareholders exceeded accumulation limits in the preceding
        five years.

We conducted fieldwork from February through November 2013 at the OIG offices in Seattle,
WA, and Denver, CO, as well as the NMFS regional offices in Gloucester, MA, Juneau, AK,
Seattle, WA, and St. Petersburg, FL.

We performed our work under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, April 26, 2013. We conducted this
review in accordance with the Quality Standards for Inspection and Evaluation, January 2011,
issued by the Council of Inspectors General on Integrity and Efficiency.




FINAL REPORT NO. OIG-14-019-I                                                                     9
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Appendix B: Other Related Information
The MSA states that allocation of fishing privileges shall be carried out in a way that no
particular individual, corporation, or other entity acquires an excessive share of such privileges.7
FMCs thus set accumulation limits for each program based on their determination of what is
considered to be excessive for each particular fishery. As shown in table 1 (see “Objective,
Findings, and Recommendations,” page 4), we observed a significant range in the programs for
what was considered to be excessive ownership. In particular, the accumulation limit for the
Golden Tilefish and Wreckfish programs were considerably higher than the other programs
reviewed. Both limits were considered by the respective FMCs to be acceptable after reviewing
several other potential accumulation limits. The FMCs considered factors such as potential
market power and competition, historical fishing practices, and efficiency of fishing operations.
The FMCs did not believe the limits would allow for significant control of the market price in
those fisheries due to the large number of substitutes in the market.

Although we did not identify instances of shareholders in programs we reviewed exceeding the
accumulation limits within the last 5 years, we did find that not all programs have adequate
controls to ensure that shareholders’ landings did not exceed their allocation (see finding 1).
NOAA was able to identify those individuals and entities originally allocated quota shares as
well as those that currently own quota shares and annual allocation through their catch share
systems. However, as our review was not a statistical sample of all catch share programs, the
results should not be used as conclusive evidence of the controls in place for the programs not
included in our review.




7
    16 U.S.C. §§ 1851(a)(4), 1853a(c)(5)(D).


10                                                                         FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Appendix C: Glossary of Fishery Terms
active sanctions—Suspensions, revocations, or modifications of a permit that are still in
effect.

allocation—Distribution of fishing opportunity among user groups or individuals. Shares are
sometimes based on historic amounts.8

bycatch— Fish that are harvested in a fishery but not sold or kept for personal use, including
economic and regulatory discards.9 Bycatch does not include fish released alive under a
recreational catch and release fishery management program.

catch share program—A program that allocates a specific portion of the annual catch limit
of a fish stock or a specific fishing area to entities such as fishermen, cooperatives, and
communities.

community development quota (CDQ)—A program in western Alaska under which a
percentage of the total allowable catch (TAC) of Bering Sea commercial fisheries is allocated to
specific communities.10

derby fishery—A fishery of brief duration during which fishermen race to take as much catch
as they can before the fishery closes.

individual fishing quota (IFQ)—A federal permit under a limited access system to harvest a
quantity of fish, expressed by a unit or units representing a percentage of the TAC of a fishery
that may be received or held for exclusive use by a person. The term does not include CDQs
as described in 16 U.S.C. § 1855(i).

individual transferable quota (ITQ)—An IFQ program where privileges can be transferred
(sold or leased) to others subsequent to initial allocations.

landings—The amount of fish (usually in pounds, although sometimes expressed as the
number of fish) caught by fishermen and sold or kept for personal consumption. Landings are
reported at the points at which fish are brought to shore.11

limited access privilege (LAP)—A federal permit, issued as part of a limited access system
under 16 U.S.C. § 1853a to harvest a quantity of fish expressed by a unit or units representing a
8
  Definitions of “allocation,” “bycatch,” “catch share program,” “derby fishery,” “individual fishing quota,”
“individual transferable quota,” “overcapacity,” and “quota share” adapted from: NOAA Fisheries. Glossary of Catch
Share Terms [Online]. www.nmfs.noaa.gov/sfa/management/catch_shares/about/glossary.html (accessed December
13, 2013).
9
  16 U.S.C. § 1802(3).
10
   NOAA NFMS, June 2006. NOAA Fisheries Glossary, NOAA Technical Memorandum no. NMFS-F/SPO-69.
Washington, DC: NOAA NFMS, 7.
11
   Definitions of “landings,” “open access,” “permit stacking,” “quota,” and “total allowable catch” adapted from:
NOAA National Marine Sanctuaries. Voices of the Bay, “Resources—Fisheries Glossary,” [Online].
http://sanctuaries.noaa.gov/education/voicesofthebay/glossary.html (accessed December 13, 2013).


FINAL REPORT NO. OIG-14-019-I                                                                                   11
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

portion of the total allowable catch of the fishery that may be received or held for exclusive use
by a person. LAP includes an IFQ but does not include CDQs as described in 16 U.S.C. §
1855(i).12

open access—A fishery in which no restrictions on entry or gear occur. A license may be
required in an open access fishery but, if there are no quotas for the number of fishermen, the
fishery is still considered open access.

optimum yield—The amount of fish that will provide the greatest overall benefit to the
nation, particularly with respect to food production and recreational opportunities, and taking
into account the protection of marine ecosystems. It is prescribed as such on the basis of the
maximum sustainable yield from the fishery, reduced by any relevant economic, social, or
ecological factor. In the case of an overfished fishery, it provides for rebuilding to a level
consistent with producing the maximum sustainable yield for the fishery.13

overcapacity—The difference between harvest capacity and a management target catch level
(e.g., TAC, quota). It is not synonymous with excess capacity, which is the difference between
harvest capacity and actual harvest.

permit stacking—The registration of more than one limited entry permit for a single vessel,
where a vessel is allowed additional catch for each additional permit registered for use with the
vessel.

quota—A portion of a total allowable catch that is allocated to a particular boat, fishery,
region, or nation for a fishing season.

quota share—The percentage of each year’s annual catch limit to which the holder of quota
shares has access to harvest. This percentage is not affected by changes in the catch limit over
time.

total allowable catch (TAC)—The catch limit for a particular fishery, generally for a year or
fishing season. TACs are usually expressed in weight or for larger species, in numbers of fish.

total allowable landings (TAL) —The total regulated landing from a stock in a given time
period, usually a year. The TAL is usually less than the TAC as the latter includes fish that are
not landed but which die as a result of capture and release or as a consequence of encounter
with the fishing gear.14




12
   16 U.S.C. § 1802(26).
13
   16 U.S.C. § 1802(33).
14
   NOAA Northeast Fisheries Science Center, September 2002. Advisory Report on Stock Status, “35th Northeast
Regional Stock Assessment Workshop,” report no. CRD-02-13. Woods Hole, MA: NOAA NFSC, 8.


12                                                                                 FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL


Appendix D: Agency Response




FINAL REPORT NO. OIG-14-019-I                           13
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




14                               FINAL REPORT NO. OIG-14-019-I
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-019-I                           15
U.S. DEPARTMENT OF COMMERCE                  OFFICE OF INSPECTOR GENERAL




                              011200000161




16                                              FINAL REPORT NO. OIG-14-019-I
